WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No 19-74
Michael A. VVillIner and Marguerite Willner v. James Dimon, et al.
(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested

by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.

There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):
Select Portfolio Servicing, Inc. and U.S. Bank National Association, as Trustee for the WaMu Mortgage Pass-Through Certificates Series 2006-AR15 Trust

I am a member of the Bar of the Supreme Court of the United States.
11] I am not presently a,rifeltiber of the Bar of this Court. Should a response be requested, the response
will be filed by a
merribe
Signature
Date:

8/12/19

(Type or print) Name

Raymond G. Mu!lady, Jr.
11] Mr.

Firm

0 Mrs.

0 Miss

Nelson Mullins Riley & Scarborough LLP

Address

101 Constitution Ave, N.W., Suite 900

City & State
Phone

0 Ms.

Washington, D.C.

202-689-2969

Zip
Email

20001

ray.mullady@nelsonmullins.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: Michael A. WiIllner and Marguerite Willner

